   United States Department of Defense


 I nspector General



 OFFICE OF THE OMBUDS

A NNUAL R EPORT


         F I S C A L Y E A R 201 0




                                         March 22, 2011
 T ABLE OF C ONTENTS




             MESSAGE FROM THE OMBUDSMAN                 3

             METHODS                                    4

             EXECUTIVE SUMMARY                          5

             DATA POINTS                                6

                TOP 10 ISSUES (SUBCATEGORIES)           6

                CONCERNS WITH UPWARD SHIFT              7

                IMPROVEMENTS                            8

             NARRATIVE                                  9

                SAMPLES OF COMPLIMENTS                  9

                SAMPLES OF TOP 10 ISSUES                10

                SAMPLES OF EMPLOYEE RECOMMENDATIONS     12

             IMPACT                                     14

             APPENDIX A – DATA TABLES                   15

             APPENDIX B – OMBUDS REPORTING CATEGORIES   17

             CONTACT                                    21




DoD IG O MBUDS A NNUAL R EPORT         2                F ISCAL Y EAR 2010
 M ESSAGE FROM THE O MBUDS                                                 SCOTT M. DEYO
                                                                           SCOTT M. DEYO




                                        INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                            400 ARMY NAVY DRIVE
                                       ARLINGTON, VIRGINIA 22202-4704




                                                                             March 22, 2011

      MEMORANDUM FOR ALL PERSONNEL

      SUBJECT: Annual Report for Fiscal Year 2010

           The Office of the Ombuds was administratively established on March 1, 2009 by then
       cting Inspector General Gordon S. Heddell, with the mission of being an independent,
      mpartial resource that provides Department of Defense Office of Inspector General (DoD IG)
      mployees worldwide with informal and confidential means of early dispute resolution. I am
      roud to serve as the first organizational Ombudsman for the DoD IG. In an effort to further
      rofessionalize the DoD IG Office of the Ombuds, on March 11, 2010 I became a Certified
       rganizational Ombudsman PractitionerSM by the International Ombudsman Association and
       as among the first cadre of professionals to receive this certification worldwide.

          To provide a professional working environment that fosters commitment, excellence, and
      eamwork, it is DoD IG policy to promote the amicable and conciliatory resolution of internal
      onflicts, disputes and workplace concerns. To that end, this office receives concerns about
      lleged improprieties and systemic problems; helps analyze complex and difficult problems;
      erves as a feedback mechanism for organizational climate issues; and explores non-adversarial
      pproaches for resolving concerns.

           Pursuant to Inspector General Instruction 5100.1(F), I am pleased to present the second
       oD IG Office of the Ombuds Annual Report for the reporting period October 1, 2009 through
       eptember 30, 2010. This report highlights major changes and accomplishments and provides
       summary of issues presented throughout the reporting period in the form of metrics and
      arrative examples. I hope all DoD IG employees, managers, and senior leadership will find
      his report a useful tool to identify opportunities for positive change.

         Questions may be directed to me by phone, 703-699-5637 or email, ombuds@dodig.mil.



                                           Ombudsman



DoD IG O MBUDS A NNUAL R EPORT                       3                                  F ISCAL Y EAR 2010
 M ETHODS                            The organizational ombudsman model is dynamic and flexible in that it
                                       offers multiple (and customized) conflict resolution business lines.



                                    WHAT      PROCESSES DO YOU USE?
  Conciliation. Building a positive relationship between the parties to a dispute.

  Negotiation. The fundamental process of dialogue between interdependent parties who seek to satisfy needs,
  interests, and/or find acceptable solutions to shared problems.

  Mediation. A facilitated negotiation to allow parties reach an acceptable resolution of issues in dispute.

  Shuttle Diplomacy. Serving as an intermediary between involved parties in dispute without those individuals
  being in direct contact with one another (e.g. a mediator “shuttling” back and forth).

  Group Facilitation. A variety of techniques to help parties clarify goals, improve the flow of communication,
  and achieve specific group objectives

  Partnering. Used to improve working relationships by seeking to prevent disputes before they occur.

  Training/Education. Teaching the conditions that cause conflict and using experiential opportunities to
  learn practical skills for handling resolution in a respectful and positive way.

  Conflict Coaching. Assisting individuals determine behaviors/actions that will help them reach their
  objectives as it relates to how they approach and resolve specific problems or overarching conflict.

  Ombuds Climate Assessment. A process applied within larger groups that identifies shared interests,
  differences, problems and opportunities for resolution and/or positive organizational change. The climate
  assessment process continued to be used extensively during this reporting period. Regarding process,
  employees in specific organizations were asked three broad questions: what is working well (and why); what
  isn‘t working well (and why); and what changes should be made. While maintaining confidentiality, this
  method highlighted organizational successes, areas of concern, and solicited specific recommended changes to
  improve their Division, Component, and/or DoD IG as a whole. Further, it was a proactive way to bring issues
  to the forefront and allow leadership to address problems before they escalate.


                              HOW      DO YOU TRACK WHAT YOU DO?
      In April 2007, the International Ombudsman Association task force on database categories presented
  “Comparing Apples to Apples” at its annual conference. This presentation summarized the group’s efforts
  over four years to develop categories and subcategories that Ombuds worldwide could use “to classify the
  kinds of issues, questions and concerns with which they are asked to assist.“

      Their research was initiated by an underlying belief that “the capacity of a profession to represent the
  nature of its work to its own members and to others is a defining characteristic of its professional maturity.”
  Further, it was theorized that using consistent data would allow monitoring of concerns over time;
  standardize professional responses; identify training needs; consistently capture ombuds’ work; and
  represent our expe0riences to colleagues and administrators. Regarding process, the task force researched,
  created preliminary categories, coordinated extensively (through surveys and interviews), benchmarked, and
  incorporated additional recommended changes from Ombuds globally. The DoD IG Office of the Ombuds
  adopted these uniform reporting categories, which may be found at Appendix B.


DoD IG O MBUDS A NNUAL R EPORT                            4                                     F ISCAL Y EAR 2010
 E XECUTIVE S UMMARY
  M AJOR C ATEGORIES

      In fiscal year (FY) 2010, the Ombuds met with 325 employees: 66 (20%) individual employees and 259
 (80%) that voluntarily participated in five organizational climate assessments. Employees are free to discuss the
 full spectrum of workplace concerns without attribution, and often share multiple issues.

      Although the number of visitors increased by 100 (45 percent) from FY 2009, there was a 9 percent reduction
 in the number of issues presented (from 1055 in FY 2009 to 963 in FY 2010). Table 1 shows the number and
 percent of issues presented in fiscal years 2009 and 2010, to include the change by percent, or growth rate.

 TABLE 1. Major Categories by Fiscal Year
                                                                        FY09              FY10            Change
                       ISSUES (Major Categories)                    #          %    #            %    #        %
           Mission, Strategic, & Organizational Concerns           342     32%      371      39%      29       8%
           Supervisory Relationships                               362     34%      285      30%      -77     -21%
           Career Progression & Development                        71          7%   139      14%      68       96%
           Administrative & Customer Service Issues                64          6%   65           7%   1        2%
           Colleague Relationships                                 93          9%   34           4%   -59     -63%
           Safety, Health, & Physical Environment                  24          2%   30           3%   6        25%
           Values, Ethics, & Standards                             60          6%   20           2%   -40     -67%
           Pay & Benefits                                          14          1%   11           1%   -3      -21%
           Policy, Legal, Regulatory, & Financial Compliance       25          2%   8            1%   -17     -68%
           TOTAL                                                   1055    100%     963      100%     -92      -9%

      NOTE: Fiscal Year 2009 reflects a partial year, from March 1, 2009 (the date the DoD IG Office of the Ombuds was
      established) through September 30, 2009.

     Concerns about the mission, strategy and organization moved up to the top major category this year, with the
 related subcategory “Leadership and Management” remaining as the top concern for a second year. Issues related
 to supervisors remain a priority concern, but fell to second with a 21 percent drop in FY 2010 (from 362 to 285).
 Employees who spoke with the Ombuds were concerned about how the work was accomplished (as related to
 timeliness and relevance of OIG work products). One observer noted this is an affirmative testament to our
 workforce’s dedication and commitment to making the DoD IG a world class organization.

     There was a significant increase in the number of issues related to career progression and development (from
 71 to 139, or 96 percent). A related subcategory focused on how positions were being filled (adherence to merit
 systems principles and alleged pre-selection). In FY 2010, we saw double digit reductions in the number of issues
 expressed about colleagues (from 93 to 34, or 63%) and values, ethics and standards (from 60 to 20, or 67%
 reduction).

     The remainder of this report will focus on the issues by subcategory. Analysis and statistical summaries
 provided on the following pages are drawn from the full data set contained in Table 5 of Appendix A. Please note
 that metrics presented in this report only reflect the thoughts of those individuals visiting the Ombuds, and
 should not be extrapolated to reflect the entire agency.



DoD IG O MBUDS A NNUAL R EPORT                                 5                                            F ISCAL Y EAR 2010
 D ATA P OINTS
 T OP T EN I SSUES ( S UBCATEGORIES)


         Table 1 displayed the number of issues presented within each major category. Each of these major
     categories, however, have more specific subcategories. For example, the major category “Supervisory
     Relationships” comprises of supervisory behaviors such as reasonable assignments, providing
     constructive feedback, discipline, etc.

         The chart below focuses on the top subcategories, which pull from a variety of major categories.
     Full data tables, which list all of the categories and subcategories, may be found at Appendix A.



        Subcategory Title                                                                                 No.
        1. Leadership and Management                                                                  80
            Quality/capacity of management/leadership decisions, reassignments, reorganizations, etc.

        2. Data/Methodology/Interpretation of Results                                                     66
            Disputes about the conduct, outcomes and interpretation of studies and resulting data

        3. Supervisory Effectiveness                                                                      54
            Management of component/division, failure to address issues

        4. Career Development/Coaching/Mentoring                                                      49
            Classroom, on-the-job, and varied assignments as training and developmental opportunities

        5. Mission/Strategic and Technical Management                                                     48
           Principles, decisions and actions related to where and how the organization is moving

        6. Priority Setting/Funding                                                                       46
            Disputes about setting priorities and/or allocation of funding within programs

        7. Job Application/Selection and Recruitment Processes                                              46
            Recruitment and selection processes; facilitation of job applications; short-listing and criteria
            for selection; disputed decisions linked to recruitment and selection

        8. Communication (Corporate)                                                                    41
            Content, quality, style, timing, effects and amount of communication about strategic issues

        9. Respect/Treatment                                                                            37
            Demonstrations of inappropriate regard for people, not listening, rudeness, crudeness, etc.

        10. Communication (Managerial)                                                                    35
            Quality and/or quantity of communication




DoD IG O MBUDS A NNUAL R EPORT                              6                                         F ISCAL Y EAR 2010
 D ATA P OINTS
 C ONCERNS WITH U PWARD S HIFT

      Table 2 displays the subcategories with the largest numeric increases from FY 2009 to FY 2010. This year
  there were six times the number of concerns expressed about “Data/Methodology/Interpretation of Results,”
  where employees cited relevant concerns 66 times (57 more than last year). Related examples include
  improper project planning, insufficient mentoring and functional training for junior professionals (to properly
  and independently carry out critical business processes), excessive top level reviews, and imbedded
  bureaucracy that halts seemingly straightforward matters (which results in final approval taking months
  rather than days).

      There was a spike in the number of concerns about the job application/selection and recruitment
  processes (from 17 to 46, or 171 percent increase). The prevailing theme revolved around perceptions of
  pre-selection and alleged disregard for merit systems principles. The Ombuds was apprised 46 times (29
  more than in FY 2009, or a 171 percent increase) of allegations where, by and large:

     •   Employees “knew” who would be selected;
     •   The job was advertised, but no interviews were conducted and selections were made;
     •   Interviews were a mere formality, with no structure or evaluation criteria used; and
     •   Positions weren’t even advertised and selections were made without interviews.

       Employees were particularly concerned about situations where such “shoe-in selections” involved
  candidates from outside the DoD IG, and called into question selecting officials’ fairness and objectivity. Some
  individuals stated they understood that the agency’s hiring process and decisions may well have been legally
  correct and according to policy. (Those that alleged a violation were referred to the Director, Human Capital
  Advisory Services and Office of Professional Responsibility). However, using such flexibilities sent the
  following messages (intended or not):

     •   The full range of qualified candidates will not receive a fair and thorough review;
     •   Only the “favorite” would be selected;
     •   “Others need not apply” to future vacancies; and/or
     •   “The limits of your capability and upward mobility have been reached.”

     The Director, Human Capital Advisory Services and Chair, Executive Resources Board, were advised of
  these concerns to consider and take actions they deemed appropriate.

             TABLE 2. Greatest Shift in Concerns (FY 2009 to FY 2010)

                              Issues Subcategory                       FY09 FY10          Change
                                                                         #       #        #     %
               Data/Methodology/Interpretation of Results                9       66      57    633%
               Job Application/Selection and Recruitment Processes       17      46      29    171%
               Career Development/Coaching/Mentoring                     24      49      25    104%
               Restructuring and Relocation                              4       18      14    350%
               Change Management                                         8       21      13    163%
               Assignments/Schedules                                     13      26      13    100%


DoD IG O MBUDS A NNUAL R EPORT                            7                                     F ISCAL Y EAR 2010
 D ATA P OINTS
 I MPROVEMENTS


          Subcategories with the greatest numeric decreases from FY 2009 to FY 2010 are shown in
      Table 3. There were 29 fewer concerns about corporate communications. There were fewer
      concerns about the use and abuse of power/authority in the workplace, questionable business
      practices, and uncomfortable climates within the organization. Employees that visited the Ombuds
      in FY 2010 cited fewer problematic behaviors from supervisors. Specifically, there were marked
      reductions in the number of concerns about managerial integrity, professional conduct, reputation,
      treatment of subordinates, and communication.


        TABLE 3. Greatest Improvements (FY 2009 to FY 2010)
                                                     FY09            FY10                Change
                          Issues
                                                       #      %        #      %        #         %
        Mission, Strategic, & Organizational Concerns
         Communication (Corporate)                70   20%            41     11%      -29      -41%
         Organizational Climate                   42   12%            17      5%      -25      -60%
         Use of Positional Power/Authority        38   11%            17      5%      -21      -55%
        Policy, Legal, Regulatory, & Financial Compliance
         Business and Financial Practices         21   84%             1     14%      -20      -95%
        Supervisory Relationships
         Respect/Treatment                        53   15%            37     13%      -16      -30%
         Communication (Managerial)               51   14%            35     12%      -16      -31%
         Reputation                               24   26%             8     24%      -16      -67%
         Climate                                  24    7%            11      4%      -13      -54%
         NSPS-Related (Policy, Transition to GS)  24    7%            13      5%      -11      -46%
        Colleague Relationships
         Reputation                               22    6%             3      1%      -19      -86%
         Communication (Colleagues)               18   19%             6     18%      -12      -67%
         Respect/Treatment                        22   24%            13     39%       -9      -41%
         Trust/Integrity                          12   13%             3      9%       -9      -75%
        Values, Ethics, and Standards
         Professional Conduct/Integrity           29   48%            10     50%      -19      -66%
         Values and Culture                       18   30%             6     30%      -12      -67%


           A large number of staff members gave credit to the Inspector General’s emphasis on leadership
       training for supervisors, senior staff, and executives. In FY 2010, a total of 225 leaders attended
       leadership workshops, which shed light on specific leadership practices required for outstanding
       results. Employees whose supervisor or team leader attended these trainings noted significant
       improvements in their boss’ leadership behaviors.




DoD IG O MBUDS A NNUAL R EPORT                         8                                     F ISCAL Y EAR 2010
 N ARRATIVE
 S AMPLES OF C OMPLIMENTS

   There were a substantial number of employees who saw improvements within the DoD IG during this
   reporting period. This section captures some of the positive behaviors and/or changes employees observed.


   MISSION/SENIOR LEADERSHIP
      •   “OIG has an extremely important mission with high visibility”
      •   “Intense work but love it; very motivating”
      •   “Messages from IG very honest and candid”
      •   “Senior leader remembered my name and acknowledged my contributions”


   MANAGEMENT
      • Synonyms: “Fantastic; exceptional; flexible; honest; open; approachable; friendly; relaxed “
      • “Trying to be more efficient; seeing products go out faster”
      • “Managers nurture staff; trust and empower staff”
      • “I saw positive changes when my boss came back from the Leadership Challenge”
      • “We're treated like professionals; empowered; given freedom to work”
      • “Care about you as a person and a professional”
      • “Making themselves more available; open door policy appreciated”
      • “Really listens to our concerns; responsive”
      • “Keeps everyone on the same playing field; more lateral than vertical; no ‘junior’ or ‘senior’”
      • “Fosters a learning environment”
            o “We are able to have open dialogue; can present divergent ideas”
            o “My boss listens and respects me even when we disagree”
      • “Weekly meetings are very informative”
      • “Our boss always reports out meetings with the front office”
      • “As a result [of above characteristic(s)], I'm more motivated and willing to go the extra mile”


   MORALE/TEAMWORK
      •   “Physical fitness program made a huge positive impact on productivity”
      •   “Telework is supported; makes a huge difference in [the DC] area”
      •   “There's a good work-life balance”
      •   “They mean what they say about family comes first; very flexible and understanding “
      •   “There's a lot of internal cooperation behind the scenes”
      •   “Staff will go above and beyond for you”
      •   “Very seasoned and professional group with diverse experience”
      •   “Leadership Challenge was excellent”
      •   “New employee orientation was very informative”


DoD IG O MBUDS A NNUAL R EPORT                           9                                       F ISCAL Y EAR 2010
 N ARRATIVE
 S AMPLES OF T OP 10 C ONCERNS

      Ombuds hear the most unique, difficult, challenging, complex, and perplexing issues that organizations face.
   Employees anonymously bring forward unpopular, controversial, yet critically important problems to the
   attention of the Ombuds to help bring resolution informally. Here is a sample of those concerns.


   1. LEADERSHIP AND MANAGEMENT
       • “What is our mission? What are our emerging issues today? What is our strategic plan?”
       • “We have a mission and vision but what about an action plan?”
       • “Upper management does not show trust or outward support; overly critical; rarely positive”
       • “We don’t know our next project; research proposals are disapproved with no reason”
       • “Mission has increased, but there are no new resources or billets”
       • “The executive in our component is extremely rude and disrespectful to us and to customers;
         automatically says ‘no’ without consideration; this attitude permeates to other senior leaders and
         throughout the organization”


   2. DATA/METHODOLOGY/INTERPRETATION OF RESULTS
       • “We need to improve how we properly plan; need actionable projects”
       • “We’re shying away from controversial findings; are there hidden agendas?”
       • “Reports get edited by entire chain of command; originator not included or briefed”
       • “We need to hold customers accountable for deadlines (with minimal extensions)”


   3. SUPERVISORY EFFECTIVENESS
       • “We talk about change but nothing happens; good ideas are dying on the vine”
       • “Entrenched in ways of doing business; ‘We’ve always done it this way’ attitude; stagnant”
       • “Not open to testing potentially more efficient methodologies”
       • “Gripes should go across or up the chain; not shared with subordinates”
       • “Team leaders are ‘quasi-supervisory’ and really need training in leadership”
       • “Need a learning environment where diverse views are encouraged”


   4. CAREER DEVELOPMENT/COACHING/MENTORING
       • “Unequal grade structures for similar work across various divisions”
       • “People are promoted too fast“
       • “Mid-level folks are lost or forgotten; need an individualized career plan”
       • “Going beyond compliments and alluding to future positions is crossing the line”
       • “A select few are always chosen for travel and trainings; prepositioned to move up”

DoD IG O MBUDS A NNUAL R EPORT                            10                                     F ISCAL Y EAR 2010
 N ARRATIVE
 S AMPLES OF T OP 10 C ONCERNS


  5. MISSION/STRATEGIC AND TECHNICAL MANAGEMENT
     • “How can you expect timely and relevant products when you add multiple layers of review?!”
     • “There are no metrics in place to track the number of days in between each process phase”
     • “Upper level reviews focus more on formatting/word choice than substance”


  6. PRIORITY SETTING/FUNDING
     • Widespread Downtime: “Junior staff are not assigned to projects immediately; staff are told to read
       policy manuals for “[3, 6, 9, 14] months”; some are working on research projects for “a year or more,
       which are often disapproved”; “there’s nothing to do when reports go through the chain for review
       (which can take months longer than the actual field work, and we ‘re not allowed to start a new
       project )”; “I just want to be productive”; “this is horribly wasteful”
     • “Automatically says ‘no’ to more manpower/resources/training; very little overall support ”


  7. JOB APPLICATION/SELECTION AND RECRUITMENT PROCESSES
     • Favoritism / Pre-Selection: “Why are Directors allowed to hire their own people without
       interviewing?”; “We always know who will be promoted before announcements are made“
     • “Promotions are given if you're eligible and you are liked; not if you have diverse views”


  8. COMMUNICATION (CORPORATE)
     • “Policies and standards are changed without feedback from the top”
     • “Need more thorough activity reports (for internal Component info)“


  9. RESPECT/TREATMENT
     • “Any positive feedback is sandwiched between two negatives”; “Simple recognition is lacking”
     • “Staff are chastised in front of others rather than behind closed doors”


  10. COMMUNICATION (MANAGERIAL)
     • “You only hear things through the grapevine”; “Some feel left out of the loop”
     • “Information from the top doesn’t flow all the way down”
     • “Sometimes receive conflicting directions from chain of command”
     • “DO NOT USE ALL CAPS WHEN WRITING; it's like ‘yelling’ and unprofessional”




DoD IG O MBUDS A NNUAL R EPORT                          11                                    F ISCAL Y EAR 2010
 N ARRATIVE
 S AMPLES OF E MPLOYEE R ECOMMENDATIONS

    Employees not only discuss problems with the Ombuds, they generate new and innovative ideas that
    challenge the status quo. To help employees play a role in agency transformation, the Ombuds serves as
    an additional resource for employee engagement, motivating participation, leveraging knowledge, and
    addressing problems (or ideas) they would otherwise not reveal through normal channels. This section
    shares the anonymous suggestions provided to the Ombuds to help resolve their underlying concerns.
    These recommendations were shared with senior DoD IG leaders for information and appropriate action.

    MISSION/LEADERSHIP
      •   Ensure all Component missions and goals align with the IG (and DoD) strategic plan
      •   OIG list of yearly priorities should mention something from all Components
      •   Expand the field more than headquarters
      •   Develop a uniform approach on how to do oversight
      •   As much as possible, provide underlying reasons for decisions and pass it along
      •   Invite and adopt innovative change; stop saying, "this is how we've always done it"
      •   Fully deploy desktop VTCs to the field; stop requiring field leaders to travel to headquarters
      •   When reviewing reports, focus on substance, not minor wording/formatting issues
      •   Rotate high visibility assignments to different people and different teams
      •   Need more effective debriefing/after action sessions to reflect and improve
      •   Provide justification for hiring decisions, to include process (panels, ranking system, results)
      •   Ensure new staff are substantively involved from day one
      •   Keep doing 360° reviews and Leadership Challenge course; saw major changes in manager
      •   Hold our feet to the fire for things under our control, but don't hold us accountable if the product
          sits on others’ desks for months
      •   Don’t delegate everything; take ownership over the issues and act
      •   Add an Executive Coaching resource internally; make a requirement for all SES
      •   Ask “what do you need from me to help you do your job?”
      •   Ensure fair rotation of who serves in the “acting” position when the leader is out
      •   Be more open to change; be more willing to shuffle up staff and fix broken processes
      •   Focus on interests, not just positions
      •   Say “good morning” and “hello” to employees by name when you see them
      •   Be more attentive to making people feel valued
      •   Assign note-taker at all staff meetings and all-hands; distribute and/or post on intranet
      •   Support a learning environment; its ok to disagree and provide different ideas

    PROCESS IMPROVEMENT
      •   We have to give much more attention to planning phase
      •   Cut out layers of review for no or uncontested findings
      •   Coordinate work product reviews concurrently, not sequentially
      •   More rapid response assessments and memo reports
      •   Coordinate reviews of draft reports concurrently, not sequentially
      •   Use Lean Six Sigma (LSS) on all major processes in every DoD IG Component
      •   Have more than one team evaluate process improvement using different methods (not just LSS)
      •   Start implementing plans of action and milestones (POA&Ms)

DoD IG O MBUDS A NNUAL R EPORT                            12                                     F ISCAL Y EAR 2010
 N ARRATIVE
 S AMPLES OF E MPLOYEE R ECOMMENDATIONS


    ADMINISTRATIVE
     •   We need more timely, thorough and responsive service from our administrative support partners
     •   “We’re primarily auditors and investigators: provide as much info as possible to help us understand”
     •   Alternatively, admin support partners need more patience and professionalism from staff
     •   Start with a collaborative “lets figure out how to get to yes” stance rather than an automatic “no”
     •   List all of our training requirements, especially the mandatory courses, by FY/CY
     •   Ensure new employees have computers on the 1st or 2nd day
     •   Address inconsistencies with organization charts; include all components
     •   Provide more frequent and thorough updates on the BRAC Mark Center move
     •   Ensure the decision to telework rests with the first line supervisor; does not require SES approval
     •   If a policy changes, give us a short summary of what changed and how that impacts us
     •   If a procedure changes, let us know by email and post it on a shared drive
     •   Consider allowing career interns an opportunity to “appeal” proposed actions to SES
     •   Implement a new tracking system that has good reporting capabilities
     •   Formalize a program to rotate every two years
     •   Initiate more function-specific training
     •   Support professional development courses (i.e. classes that enrich but not specifically related to job)
     •   Convert contractors into government positions to increase accountability
     •   Make sure all job advertisements are forwarded to staff
     •   Find meaningful ways to improve administrative support to field offices
     •   Inventory staff’s knowledge and skills; capture electronically (i.e. SharePoint) for easy retrieval
     •   Centralize all like or related functions (i.e. procurement, training, edit) for oversight and consistency
     •   More emphasis on security (i.e. using special alert system for emergencies) and safety (elevate role)


    POLICY CLARIFICATIONS

     • Fitness Program. Section C of IG Instruction 6100.2, “Physical Fitness Program,” December 3, 2009,
       states “this Instruction does not apply to DoD IG part-time personnel, contractors, summer hires, or
       interns.” Some personnel participating in the Defense Career Intern Program expressed concerns
       about being excluded from participating. The following clarification was received from HCAS, “The
       intern exclusion was not meant to nor does it apply to permanent employees in a career ladder
       program or the DCIP program.”

     • After a number of new staff stated they did not know the DoD IG was moving to the Mark Center,
       HCAS amended all vacancy announcements to include a statement about the BRAC move from
       Arlington to Alexandra, VA. Hiring managers were reminded to notify candidates and fully disclose
       this information about the move during the hiring process.



DoD IG O MBUDS A NNUAL R EPORT                            13                                     F ISCAL Y EAR 2010
                                 Table 4 displays the number (and percent) of impacts described to the Ombuds
 I MPACT                         between FY 2009 and FY 2010, to include the numeric change between fiscal years.
                                 (The percent change between fiscal years was excluded to prevent misleading data.)




        The 325 employees that shared their concerns with the Ombuds described 387 adverse impacts on
    them personally, on their team, component, and the mission. This is an average of 1.2 impacts per person
    for FY 2010; down from 1.9 average impacts per person in FY 2009. There was a tie for the number one
    impact: lowered morale and delayed/missed deadlines comprised of one third of the stated consequences
    of workplace concerns.

        Employees cited 32 instances where they felt a manager/leader’s handling of workplace matters (or
    not handling them) severely damaged his/her credibility. A similar number of consequences of workplace
    conflict were depicted as reduced collaboration with colleagues, decreased satisfaction with the job,
    quality problems, which often led to employee turnover.


                       TABLE 4. Stated Consequences of Workplace Concerns

                                                                          FY09         FY10       Change
                                                                         #      %     #      %       #
                                    Personal                            152    36%   133    34%    -19
         KEY                          Lowered morale                     62    15%    64    17%      2
      INCREASES                       Decreased job satisfaction         22     5%    27     7%      5
                                      Increased Anxiety                  34     8%    20     5%    -14
     ISSUES > 25
                                      Defensiveness                      17     4%    10     3%     -7
     DECREASES                        Reduced productivity               16     4%     9     2%     -7
                                      Loss of sleep                       1     0%     3     1%      2
                                    Mission                             100    24%   131    34%     31
                                      Delayed and missed deadlines       22     5%    64    17%     42
                                      Excessive employee turnover        16     4%    26     7%     10
 Increases in concerns are            Quality Problems                   47    11%    25     6%    -22
 represented in red; decreases        Decreased customer satisfaction    15     4%    16     4%      1
 (or categories experiencing        Component                           131    31%   100    26%    -31
 no increase or decrease) are         Damaged management credibility     50    12%    32     8%    -18
 shaded in green. Issues
                                      Reduced collaboration              28     7%    29     7%      1
 presented to the Ombuds
                                      Distrust                           26     6%    18     5%     -8
 more than 25 times are
 highlighted in yellow.               Hidden agendas                      5     1%     7     2%      2
                                      Negative upward attention           6     1%     6     2%      0
                                      Split alliances                    12     3%     6     2%     -6
                                      Passive/aggressive behavior         4     1%     2     1%     -2
                                    Professional                         39     9%    23     6%    -16
                                      Fault-finding and Blaming          21     5%    13     3%     -8
                                      Increased supervision              10     2%     7     2%     -3
                                      Fractionated activities             8     2%     3     1%     -5
                                    TOTAL                               422   100%   387   100%    -35




DoD IG O MBUDS A NNUAL R EPORT                                     14                         F ISCAL Y EAR 2010
 A PPENDIX A
 D ATA T ABLES

    Table 5 provides the full number and percent of major issues and subcategories                    KEY
    presented to the Ombuds between FY 2009 and FY 2010, to include the numeric
    change between fiscal years. (The percent change between fiscal years was excluded             INCREASES

    to prevent misleading data.) Similar to Table 4, increases in concerns are represented         ISSUES > 25
    in red; decreases (or categories experiencing no increase or decrease) are shaded in
                                                                                                   DECREASES
    green. Issues presented to the Ombuds more than 25 times are highlighted in yellow.

                                                                          FY09          FY10   Change
        TABLE 5. Issues (All Categories)
                                                                      #      %      #      %      #
         Mission, Strategic, & Organizational Concerns               342    100%   370    100%   28
          Leadership and Management                                  76      22%   80      22%       4
          Data/Methodology/Interpretation of Results                 9        3%   66      18%      57
          Mission/Strategic & Technical Mgmt                         46      13%   48      13%       2
          Priority Setting /Funding                                  42      12%   46      12%       4
          Communication                                              70      20%   41      11%      -29
          Change Management                                          8        2%   21       6%      13
          Restructuring and Relocation                               4        1%   18       5%      14
          Organizational Climate                                     42      12%   17       5%      -25
          Use of Positional Power/Authority                          38      11%   17       5%      -21
          Division/Field-Specific                                    7        2%   16       4%       9
         Supervisory Relationships                                   362    100%   284    100%      -78
          Supervisory Effectiveness                                  52      14%   54      19%        2
          Respect/Treatment                                          53      15%   37      13%      -16
          Communication                                              51      14%   35      12%      -16
          Equitable Treatment                                        30       8%   31      11%        1
          Assignments/Schedules                                      13       4%   26       9%      13
          Feedback                                                   31       9%   25       9%       -6
          Trust/Integrity                                            26       7%   18       6%       -8
          Bullying                                                   14       4%   14       5%        0
          NSPS-Related (Policy, Implementation)                      24       7%   13       5%      -11
          Climate                                                    24       7%   11       4%      -13
          Priorities/Values/Beliefs                                  13       4%   6        2%       -7
          Discipline                                                 1        0%   5        2%        4
          Reputation                                                 22       6%   3        1%      -19
          Diversity-Related                                          1        0%   2        1%        1
          Insubordination                                            0        0%   2        1%        2
          Retaliation                                                6        2%   1        0%       -5
          Consultation                                               1        0%   1        0%        0
          Physical Violence                                          0        0%   0        0%        0
         Career Progression & Development                            71     100%   138    100%      67
          Career Development/Coaching/Mentoring                      24      34%   49      36%      25
          Job Application/Selection and Recruitment Processes        17      24%   46      33%      29
          Career Progression                                         10      14%   13       9%       3
          Rotation and Duration of Assignment                        8       11%   12       9%       4
          Job Classification and Description                         2        3%   7        5%       5
          Re-employment of Former or Retired Staff                   3        4%   5        4%       2
          Involuntary Transfer/Change of Assignment                  5        7%   4        3%      -1
          Termination/Non-Renewal                                    0        0%   2        1%       2
          Position Security/Ambiguity                                2        3%   0        0%      -2
          Resignation                                                0        0%   0        0%       0
          Position Elimination                                       0        0%   0        0%       0


DoD IG O MBUDS A NNUAL R EPORT                                  15                               F ISCAL Y EAR 2010
 A PPENDIX A
 D ATA T ABLES


                                                                         FY09          FY10   Change
       TABLE 5 (cont’d). Issues (All Categories)
                                                                    #       %     #       %     #
      Administrative & Customer Service                             64     100%   65     100%   1
        Responsiveness/Timeliness                                   32      50%   29      45%       -3
        Admin Decisions; Interpretation/Application of Rules        22      34%   19      29%       -3
        Quality of Services                                         10      16%   17      26%        7
        Behavior of Service Provider(s)                             0        0%   0        0%       0
      Colleague Relationships                                       93     100%   33     100%      -60
        Respect/Treatment                                           22      24%   13      39%        -9
        Reputation                                                  24      26%   8       24%       -16
        Communication                                               18      19%   6       18%       -12
        Trust/Integrity                                             12      13%   3        9%        -9
        Bullying                                                    8        9%   1        3%        -7
        Priorities/Values/Beliefs                                   6        6%   1        3%        -5
        Diversity-Related                                           2        2%   1        3%        -1
        Retaliation                                                 1        1%   0        0%        -1
        Physical Violence                                           0        0%   0        0%         0
      Safety, Health, and Physical Environment                      24     100%   27     100%       3
        AWS/Telework                                                7       29%   12      44%        5
        Security                                                    2        8%   5       19%        3
        Physical Working Conditions                                 3       13%   4       15%        1
        Cleanliness                                                 2        8%   3       11%        1
        Safety                                                      6       25%   2        7%       -4
        Ergonomics                                                  0        0%   1        4%        1
        Work Related Stress and Work-Life Balance                   4       17%   0        0%       -4
        Safety Equipment                                            0        0%   0        0%        0
        Environmental Policies                                      0        0%   0        0%        0
      Values, Ethics, and Standards                                 60     100%   20     100%      -40
        Professional Conduct/Integrity                              29      48%   10      50%       -19
        Values and Culture                                          18      30%   6       30%       -12
        Standards of Conduct                                        11      18%   4       20%        -7
        Policies and Procedures (Other)                             2        3%   0        0%        -2
      Pay & Benefits                                                14     100%   12     100%       -2
        Compensation                                                9       64%   12      100%       3
        Benefits                                                    4       29%   0        0%       -4
        Retirement, Pension                                         1        7%   0        0%       -1
        Payroll                                                     0        0%   0        0%        0
      Policy, Legal, Regulatory, & Financial Compliance             25     100%   7      100%      -18
        Disability/Reasonable Accommodation                         2        8%   3       43%         1
        Privacy and Security of Information                         0        0%   2       29%         2
        Business and Financial Practices                            21      84%   1       14%       -20
        Accessibility                                               0        0%   1       14%         1
        Harassment                                                  1        4%   0        0%        -1
        Discrimination                                              1        4%   0        0%        -1
        Criminal Activity                                           0        0%   0        0%         0
        Intellectual Property Rights                                0        0%   0        0%         0
        Property Damage                                             0        0%   0        0%         0



DoD IG O MBUDS A NNUAL R EPORT                                 16                               F ISCAL Y EAR 2010
 A PPENDIX B
 U NIFORM R EPORTING C ATEGORIES


1. COMPENSATION                AND     BENEFITS
    Questions, concerns, issues or inquiries about the equity, appropriateness and competitiveness of
    employee compensation, benefits and other benefit programs.
    1a. Compensation (rate of pay, salary amount, job salary classification/level)
    1b. Payroll (administration of pay, check wrong or delayed)
    1c. Benefits (decisions related to medical, dental, life, leave, worker’s compensation, insurance, etc.)
    1d. Retirement, Pension (eligibility, calculation of amount, retirement pension benefits)


2. EVALUATIVE RELATIONSHIPS
    Questions, concerns, issues or inquiries arising between people in evaluative relationships (i.e.
    supervisor-employee, team leader-employee.)
    2a. Priorities, Values, Beliefs (differences about what should be considered important – or most important – often
        rooted in ethical or moral beliefs)
    2b. Respect/Treatment (demonstrations of inappropriate regard for people, not listening, rudeness, crudeness, etc.)
    2c. Trust/Integrity (suspicions of dishonesty, whether or to what extent one wishes to be honest, etc.)
    2d. Reputation (possible impact of rumors and/or gossip about professional or personal matters)
    2e. Communication (quality and/or quantity of communication)
    2f. Bullying, Mobbing (abusive, threatening, and/or coercive behaviors)
    2g. Diversity-Related (comments or behaviors perceived to be insensitive, offensive, or intolerant on the basis of an
        identity-related difference such as race, gender, nationality, sexual orientation)
    2h. Retaliation (punitive behaviors for previous actions or comments, whistleblower)
    2i. Physical Violence (actual or threats of bodily harm to another)
    2j. Assignments/Schedules (appropriateness or fairness of tasks, expected volume of work)
    2k. Feedback (feedback or recognition given, or responses to feedback received)
    2l. Consultation (requests for help in dealing with issues between two or more individuals they supervise or with other
         unusual situations in evaluative relationships)
    2m. Performance Appraisal (job performance in formal or informal evaluation)
    2n. Climate (prevailing behaviors, norms, or attitudes within a department for which supervisors have responsibility.)
    2o. Supervisory Effectiveness (management of a component/division, failure to address issues)
    2p. Insubordination (refusal to do what is asked)
    2q. Discipline (appropriateness, timeliness, requirements, alternatives, or options for responding)
    2r. Equity of Treatment (favoritism, one or more individuals receive preferential treatment)


    NOTE: Additional information about the uniform reporting categories may be obtained from the International Ombudsman Association,
    which can be found online at www.ombudsassociation.org.



DoD IG O MBUDS A NNUAL R EPORT                                    17                                          F ISCAL Y EAR 2010
 A PPENDIX B
 U NIFORM R EPORTING C ATEGORIES


 3. PEER    AND     COLLEAGUE RELATIONSHIPS
    Questions, concerns, issues or inquiries involving peers or colleagues who do not have a supervisory–
    employee or student–professor relationship (e.g., two staff members within the same department or
    conflict involving members of a student organization.)
    3a. Priorities, Values, Beliefs (differences about what should be considered important – or most important – often
        rooted in ethical or moral beliefs)
    3b. Respect/Treatment (demonstrations of inappropriate regard for people, not listening, rudeness, crudeness, etc.)
    3c. Trust/Integrity (suspicions of dishonesty, whether or to what extent one wishes to be honest, etc.)
    3d. Reputation (possible impact of rumors and/or gossip about professional or personal matters)
    3e. Communication (quality and/or quantity of communication)
    3f. Bullying, Mobbing (abusive, threatening, and/or coercive behaviors)
    3g. Diversity-Related (comments or behaviors perceived to be insensitive, offensive, or intolerant on the basis of an
        identity-related difference such as race, gender, nationality, sexual orientation)
    3h. Retaliation (punitive behaviors for previous actions or comments, whistleblower)
    3i. Physical Violence (actual or threats of bodily harm to another)


 4. CAREER PROGRESSION                  AND     DEVELOPMENT
    Questions, concerns, or inquiries about administrative processes and decisions regarding entering
    and leaving a job, duties, (i.e., recruitment, nature and place of assignment, job security, separation.)
    4a. Job Application/Selection and Recruitment Processes (recruitment and selection processes, facilitation of job
        applications, selection criteria, disputed decisions)
    4b. Job Classification and Description (changes or disagreements over required tasks, etc.)
    4c. Involuntary Transfer/Change of Assignment (notice, selection and special dislocation rights/benefits, removal
        from prior duties, unrequested change of work tasks)
    4d. Tenure/Position Security/Ambiguity (security of position, provision of secure contractual categories)
    4e. Career Progression (promotion, reassignment, reappointment)
    4f. Rotation and Duration of Assignment (requests for transfer, denied or involuntary transfers, etc.)
    4g. Resignation (concerns about whether or how to voluntarily terminate employment , strategies, etc.)
    4h. Termination/Non-Renewal (non-conversion to permanent, disputed separation from organization)
    4i. Re-employment of Former or Retired Staff (loss of competitive advantages associated with re-hiring retired staff,
        favoritism)
    4j. Position Elimination (elimination or abolition of an individual’s position)
    4k. Career Development, Coaching, Mentoring (classroom, on-the-job, and varied assignments as training and
        developmental opportunities)




DoD IG O MBUDS A NNUAL R EPORT                                 18                                      F ISCAL Y EAR 2010
 A PPENDIX B
 U NIFORM R EPORTING C ATEGORIES

 5. LEGAL, REGULATORY, FINANCIAL                       AND     COMPLIANCE
    Questions, concerns, issues or inquiries that may create a legal risk (financial, sanction etc.) for the
    organization or its members if not addressed, including issues related to waste, fraud or abuse.
    5a. Criminal Activity (threats or crimes planned, observed, or experienced, fraud)
    5b. Business and Financial Practices (inappropriate actions that abuse or waste organizational finances, facilities or
        equipment)
    5c. Harassment (unwelcome physical, verbal, written, e-mail, audio, video psychological or sexual conduct that
        creates a hostile or intimidating environment)
    5d. Discrimination (different treatment compared with others or exclusion from some benefit on the basis of, for
        example, gender, race, age, national origin, religion, etc.[being part of an Equal Employment Opportunity
        protected category – applies in the U.S.])
    5e. Disability, Temporary or Permanent, Reasonable Accommodation (extra time on exams, assistive technology,
        interpreters, or Braille materials including questions on policies, etc. for people with disabilities)
    5f. Accessibility (removal of physical barriers, providing ramps, elevators, etc.)
    5g. Intellectual Property Rights (e.g., copyright and patent infringement)
    5h. Privacy and Security of Information (release or access to private or confidential information)
    5i. Property Damage (personal property damage, liabilities)


 6. SAFETY, HEALTH,          AND     PHYSICAL ENVIRONMENT
    Questions, concerns, issues or inquiries about Safety, Health and Infrastructure-related issues.
    6a. Safety (physical safety, injury, medical evacuation, meeting requirements for training and equipment)
    6b. Physical Working/Living Conditions (temperature, odors, noise, available space, lighting, etc)
    6c. Ergonomics (proper set-up of workstation affecting physical functioning)
    6d. Cleanliness (sanitary conditions and facilities to prevent the spread of disease)
    6e. Security (adequate lighting in parking lots, metal detectors, guards, limited access to building by outsiders, anti-
        terrorists measures (not for classifying “compromise of classified or top secret” information)
    6f. Telework/Flexplace (ability to work from home or other location because of business or personal need, e.g., in case
        of man-made or natural emergency)
    6g. Safety Equipment (access to/use of safety equipment e.g. fire extinguisher, gas masks, defibrillators, etc.)
    6h. Environmental Policies (policies not being followed, being unfair ineffective, cumbersome)
    6i. Work Related Stress and Work–Life Balance (Post-Traumatic Stress, Critical Incident Response, internal/external
        stress, e.g. divorce, shooting, caring for sick, injured)


 7. SERVICES/ADMINISTRATIVE ISSUES
    Questions, concerns, or inquiries about services/administrative offices
    7a. Quality of Services (how well services were provided, accuracy or thoroughness of information, etc.)
    7b. Responsiveness/Timeliness (time involved in getting a response or return call or about the time for a complete
        response to be provided)



DoD IG O MBUDS A NNUAL R EPORT                                 19                                         F ISCAL Y EAR 2010
 A PPENDIX B
 U NIFORM R EPORTING C ATEGORIES


 7. SERVICES/ADMINISTRATIVE ISSUES (CONT’D)
    7c. Administrative Decisions and Interpretation/Application of Rules (impact of non-disciplinary decisions, decisions
        about requests for administrative and academic services, e.g., exceptions to policy deadlines or limits, refund
        requests, appeals of library or parking fines, application for financial aid, etc.)
    7d. Behavior of Service Provider(s) (how an administrator or staff member spoke to or dealt with a constituent,
        customer, or client, e.g., rude, inattentive, or impatient)



 8. MISSION, STRATEGIC              AND      ORGANIZATIONAL CONCERNS
    Questions, concerns, issues or inquiries that relate to the whole or some part of an organization.
    8a. Strategic and Mission-Related/ Strategic and Technical Management (principles, decisions and actions related to
        where and how the organization is moving)
    8b. Leadership and Management (quality/capacity of management and/or management/leadership decisions,
        suggested training, reassignments and reorganizations)
    8c. Use of Positional Power/Authority (lack or abuse of power provided by individual’s position)
    8d. Communication (content, style, timing, effects and amount of organizational and leader’s communication, quality
        of communication about strategic issues)
    8e. Restructuring and Relocation (broad scope planned or actual restructuring and/or relocation)
    8f. Organizational Climate (issues related to organizational morale and/or capacity for functioning)
    8g. Change Management (making, responding or adapting to organizational changes, quality of leadership in
        facilitating organizational change)
    8h. Priority Setting and/or Funding (Disputes about setting priorities and/or allocation of funds)
    8i. Data, Methodology, Interpretation of Results (scientific disputes about the conduct, outcomes and interpretation of
        studies and resulting data for policy)
    8j. Interdepartment/Interorganization Work/Territory (disputes about which department/organization should be
         doing what/taking the lead)


 9. VALUES, ETHICS,         AND     STANDARDS
    Questions, concerns, issues or inquiries about the fairness of organizational values, ethics, and/or
    standards, the application of related policies and/or procedures, or the need for creation or revision of
    policies, and/or standards.
    9a. Standards of Conduct (fairness, applicability or lack of behavioral guidelines and/or Codes of Conduct, e.g.,
        Academic Honesty, plagiarism, Code of Conduct, conflict of interest)
    9b. Values and Culture (questions, concerns or issues about the values or culture of the organization)
    9c. Professional Conduct/Integrity (scientific or research misconduct or misdemeanors, e.g., authorship; falsification
        of results)




DoD IG O MBUDS A NNUAL R EPORT                                20                                         F ISCAL Y EAR 2010
 This report is available online at www.dodig.mil/ombudsman.
Additional information may be obtained by writing or contacting:


           Department of Defense Inspector General
                    Office of the Ombuds
                    400 Army Navy Drive
                  Arlington, Virginia 22202




                  Scott M. Deyo, Ombudsman
                 703-699-5637 DSN 499-5637
                     ombuds@dodig.mil
